     UNITED STATES DEPARTMENT OF AGRICULTURE

             OFFICE OF INSPECTOR GENERAL



           STATEMENT OF KATHLEEN S. TIGHE

              DEPUTY INSPECTOR GENERAL



                        Before the

SUBCOMMITTEE ON NATIONAL PARKS, FORESTS, AND PUBLIC LANDS

            COMMITTEE ON NATURAL RESOURCES


              U.S. HOUSE OF REPRESENTATIVES



                      JUNE 19, 2007
Good morning, Chairman Grijalva, Ranking Member Bishop, and Members of the
Subcommittee.     Thank you for inviting the Office of Inspector General (OIG) of the
Department of Agriculture (USDA) to present our views on wildfire preparedness issues.
OIG has conducted substantial audit and investigative work pertaining to the Forest Service
(FS) and its vital stewardship role to preserve and protect America’s national forests. As
requested by the Subcommittee, my testimony will present the findings and recommendations
produced by our review of FS’ implementation of the Healthy Forests Initiative (HFI).


USDA, through FS, is responsible for the management of our Nation’s 155 national forests
and 20 grasslands.      These lands cover more than 192 million acres. FS officials face
significant challenges in their important stewardship activities, for it is clear that wildfires on
FS lands are becoming larger and more expensive to extinguish and suppress. From fiscal
year (FY) 2000 to 2006, FS suppression costs averaged $900 million annually and exceeded
$1 billion in 4 of those 7 years. In some years, FS has had to borrow funds from other
programs to pay for its wildfire suppression activities, and this has adversely affected FS’
ability to accomplish work in other areas.


FS has estimated that the 73 million acres of the land it manages and 59 million acres of
privately owned forest land are at high risk of ecologically destructive wildland fire. One of
the most extensive and serious problems related to the health of national forests is the over-
accumulation of dead vegetation that can fuel fires. The increase in the amount of hazardous
fuels is the result of several major factors.        First, extended drought conditions have
significantly increased the amount of unhealthy or dead forests and vegetation. Second,
widespread disease and insect infestations have killed or affected the health of large areas of
national and private forestland.   Third, past fire suppression practices of the Federal, State,
and local governments, private companies, and individuals have prevented the natural use of
wildland fire (Wildland Fire Use – WFU) to reduce the accumulation of hazardous fuels.


It has been estimated by some FS managers that hazardous fuels are accumulating three times
as fast as they can be treated. The accumulation of hazardous fuels has contributed to an
increasing number of large, intense, and catastrophically destructive wildfires. Reducing the
                                                                                                  2


buildup of hazardous fuels is crucial to reducing the extent, severity, and costs of wildfires.


The Healthy Forests Initiative (HFI) was launched in August 2002 by President Bush to
reduce the risks severe wildfires pose to people, communities, and the environment. The HFI
includes a number of policy, program, and legislative changes to help achieve this. One of
the primary goals of the HFI is to reduce the threat of wildfire by removing hazardous fuels
from areas in national forests that constitute the greatest threats of catastrophic fire.
Catastrophic fires can destroy hundreds of thousands of acres at one time, burn entire
communities, destroy watersheds that are the source of water for millions of people, and take
the lives of community residents and firefighters. These fires can burn with such intensity
that they change the composition of the landscape and soil for generations. A catastrophic
wildfire can grow to such an extent that it creates its own weather pattern and becomes
physically impossible to suppress without the assistance of nature (i.e. significant amounts of
rain).   Already in the 2007 fire season, one fire in Georgia and Florida has burned
approximately 468,000 acres (731 square miles). This is approximately 2.4 times larger than
the entire land area of New York City or about 12 times that of Washington, D.C.


In September of 2006, OIG completed an audit that evaluated FS efforts to implement the
HFI. We focused our audit work on the agency’s hazardous fuels reduction program because
more than half of FS’ funding under the HFI is allocated for this purpose. For FY 2005 and
2006, the FS budget for hazardous fuels reduction was approximately $262 million and $281
million, respectively. Our review evaluated the methods used by FS to identify, select, and
fund fuel reduction projects. We also evaluated how the agency reported accomplishments.


At the time of our review, FS’ identification of and funding for fuel reduction projects were
determined and performed at the discretion of individual field units, after they performed
various analyses to identify communities at risk. FS did not require the use of a specific set
of criteria or analytical process to ensure that the identification of projects was consistent
nationwide, or to justify the selection of one project over another. FS allocated hazardous
fuels reduction funds to its regions based primarily on historical funding levels and
established acres as targets. Regional officials were then responsible for making funding
                                                                                               3


allocations to Forest Supervisors and final project allocation decisions were made at the local
level. Funds were not allocated to the regions based upon identified wildfire risks or those
fuel reduction projects that would be most effective in reducing that risk.


Specifically, our audit evaluated FS management controls to (1) determine if the hazardous
fuels reduction projects that were conducted were cost beneficial, (2) how FS identified and
prioritized such projects, (3) the agency’s process for allocating funds among projects in
different regions, and (4) the agency’s process to report hazardous fuels reduction
accomplishments.     I would like to advise the Subcommittee of the primary findings and
recommendations from our audit.


Audit Findings and Recommendations

Assessment of Risk
At the time of our audit, we found that FS lacked a consistent analytical process for assessing
the level of risk that communities faced from wildland fire and determining if a hazardous
fuels project would be cost beneficial. FS had not developed specific national guidance for
weighing the risks against the benefits of fuels treatment and restoration projects.


In order to allocate resources most effectively, it is important for FS to be able to identify
which communities and what National Forest System (NFS) resources are at risk. FS needs
to be able to determine the level of risk for significant and destructive wildland fires
throughout the NFS and what the potential benefit or payback would be from conducting a
specific fuels reduction project. While we agreed with FS that a traditional cost benefit
analysis would be impractical, we concluded that FS could develop a set of criteria to
compare the relative degrees of exposure and risk to wildland fire that each community faces.
The assessment should include a measure of the benefits and/or consequences of selecting
one project over another for treatment.


Currently, FS’ nine regions each have different ways of identifying priorities. At the time of
our audit, FS could not adequately compare hazardous fuels reduction projects among
regions. This affects the ability to identify, on a national basis, those projects that should be
                                                                                             4


funded and completed first. While some areas or communities may be at high risk from
wildfires, it may not be effective for FS to spend large sums of money on hazardous fuels
reduction projects if the nearby communities have not enacted and enforced rigorous building
and zoning regulations, otherwise known as “Firewise” regulations. A community’s lack of
Firewise regulations could significantly reduce the effectiveness of any FS efforts to reduce
hazardous fuels around the community. FS officials believe that the new LANDFIRE system
being developed will provide more accurate nationwide data so that they can better define and
identify areas where fuels treatment would be most cost beneficial.


In the interim while new systems are being developed, FS needs to develop a methodology to
evaluate the effectiveness of alternative strategies in meeting the agency’s hazardous fuels
reduction program goals.      Without a sound process for assessing the level of risk that
communities face from wildland fire, one that agency managers can apply consistently, FS
will be unable to identify and prioritize the most effective fuel reduction projects.


Prioritizing and Funding Projects
FS also did not have the ability to ensure that the highest priority fuels reduction projects
were funded first. Because projects were not prioritized under uniform, national criteria,
there was no systematic way to allocate funds to the most critical projects. Funds were
allocated based upon a region’s historical funding levels and targets for number of acres to be
treated that were set by FS Headquarters office in Washington, D.C. There were no controls
in place to prevent funds from being allocated to projects in order to achieve targets of acres
treated instead of reducing the most risk. This could lead to less important projects being
funded.


We recommended that FS develop and implement specific national guidance for assessing the
risks wildland fires present to residents and communities and determining the comparative
value and benefit of fuels treatment/restoration projects. We also recommended that FS
establish controls to ensure that the process and methodology to identify and prioritize the
most effective fuels reduction projects can be utilized at all levels to ensure funds are
distributed according to the priority of the projects. This process should have uniformity (and
                                                                                                                     5


comparability) from the local level (districts) through to the Headquarters office and across
geographic boundaries (i.e. among regions).



Performance Measures and Reporting Standards

We found that FS’ performance measures and reporting standards did not provide adequate
information to evaluate the effectiveness of a fuel treatment practice.                           They did not
communicate to either FS managers or other stakeholders whether the treatment of an acre of
forest had resulted in changing its condition class, 1 or if the project reduced the risk from
catastrophic wildland fire. The agency’s focus has been on achieving firm annual targets
(output) that are measured in the number of acres treated. However, these acres are not
homogenous, meaning that some acres of hazardous fuels create much more risk to
communities and resources than others. Reporting the number of acres treated did not
communicate the amount of risk that has been reduced. Focusing only on acres treated did
not communicate key information on the effectiveness of the treatment practice. In addition,
hazardous fuels accomplishment reports did not provide detailed information to evaluate the
overall progress of the program; details such as the location of treatments, changes in
condition class, and initial or maintenance treatments are not reported.

We recommended that FS develop and implement a more meaningful and outcome-oriented
performance measure for reporting metrics, such as acres with “risk reduced” or “area
protected.” Also, FS should direct that implementing effective integrated treatments are more
important than solely meeting acreage targets. We also recommended that FS improve
accomplishment reporting by including more detailed information, such as breaking down
accomplishments by region, noting changes in condition class, and differentiating between
initial and maintenance treatments and multiple treatments on the same acres.

FS agreed with our audit findings and each of our HFI program recommendations and


1
  The fire-regime condition class is an expression of the departure of the current condition from the historical
fire regime resulting in alterations to the ecosystem. A condition class is measured as a 1, 2, or 3, with 3 being
the most significant departure from the historical fire regime. Activities that cause the departure include fire
exclusion, timber harvesting, grazing, growth of exotic plant species, insects, and disease.
                                                                                                        6


committed to take action on them.


HFI Activities in FY 2008

FS’ estimated budget for Hazardous Fuel Reduction activities in FY 2007 is $291.8 million
and is projected by agency officials to be $292 million for FY 2008. While the amounts for
FY 2007 and FY 2008 are approximately the same, the proposed FY 2008 amount of $292
million is 25% more than the enacted amount for FY 2004 of $233 million.


OIG plans to conduct a follow-up audit in FY 2008. Our objective will be to determine if FS
has implemented the agreed upon recommendations and whether the agency’s responsive
actions have been effective.            FS’ FY 2008 budget justification reflects some of the
measurements we recommended in our report, i.e., reporting accomplishments by changes in
condition class, reporting accomplishments obtained through other land management
activities, and distinguishing accomplishments between initial treatments and maintenance
treatments. The budget justification’s FY 2008 plan places an emphasis on identifying and
treating risks.


As part of our evaluation of the key management challenges facing the Department in 2007,
we identified large fire suppression cost as a new challenge. This challenge encompasses the
HFI. During our audit of FS’ Large Fire Suppression Costs, 2 we identified the accumulation
of hazardous fuels, especially within the wildland urban interface, as a major factor in
increasing fire suppression costs. We believe that improving the health of the National
Forests will ultimately help reduce agency costs for suppressing wildfires.


I want to express my sincere thanks to FS officials and employees for the assistance and
considerable cooperation they extended to OIG during these two audits. FS faces many
difficult programmatic issues and natural resource challenges as it strives to provide good
stewardship of America’s national forests. OIG’s management and staff greatly appreciate
the excellent but frequently uncredited work that FS employees perform on a daily basis to


2
    OIG Report, “Forest Service Large Fire Suppression Costs.” Report No. 08601-44-SF, November 2006.
                                                                                      7


preserve and enhance our precious national forests.


This concludes my testimony. Thank you again for affording me the opportunity to testify
before the Subcommittee. I would be pleased to address any questions you may have.
